TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      The Office of Research, Analysis, and
                      Statistics Needs to Address Computer
                               Security Weaknesses



                                      September 17, 2008

                              Reference Number: 2008-20-176




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 17, 2008


 MEMORANDUM FOR DIRECTOR, OFFICE OF RESEARCH, ANALYSIS, AND
                STATISTICS

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Office of Research, Analysis, and Statistics
                             Needs to Address Computer Security Weaknesses (Audit # 200720032)

 This report presents the results of our review to determine whether the Internal Revenue
 Service’s (IRS) Office of Research, Analysis, and Statistics (RAS organization) maintained
 effective security controls over its information systems. This review was included in the
 Treasury Inspector General for Tax Administration Fiscal Year 2008 Annual Audit Plan and was
 part of the Information Systems Programs business unit’s statutory requirement to annually
 review the adequacy and security of IRS technology.

 Impact on the Taxpayer
 Information technology personnel in the RAS organization manage computer systems containing
 a significant amount of sensitive taxpayer data. Users query these systems to obtain enormous
 amounts of taxpayer data. However, these personal data were not adequately secured. Several
 security weaknesses existed on each of the three computer systems we reviewed. These
 weaknesses increase the risks of 1) unauthorized disclosure of taxpayer data that could be used
 for identity theft, and 2) significant disruption to computer operations.

 Synopsis
 The RAS organization is the main provider of statistics about the Federal Government tax
 system. It also provides IRS officials with a suite of research tools and comprehensive analyses
 to support management decisions.
                        The Office of Research, Analysis, and Statistics Needs to
                                Address Computer Security Weaknesses



We identified several weaknesses over the management of access to the RAS organization’s
computer systems. Managers did not carry out their responsibilities to ensure that 1) users were
authorized to access the computer systems, 2) access accounts for former employees and current
employees who no longer needed access were removed, and 3) system administrators removed or
locked unnecessary generic or shared administrator accounts that provide additional
opportunities for malicious intruders to gain access to the systems.
In addition, password settings did not conform to IRS information security standards. For
example, passwords were not always sufficiently complex, passwords were not set to expire after
the required length of time, and new users were not required to change their passwords at initial
login.
Unencrypted sensitive data were transferred between computers. The IRS has developed
procedures to limit unsecured services on its networks and was in the process of implementing
these procedures during our review. However, the unsecured services were still in use on the
RAS organization’s computer systems.
Controls to detect inappropriate security events were not effective. Audit log1 data were not
adequately retained or reviewed on the computer systems. Intrusion detection systems were not
installed and virus protection software was not current. In addition, data received from other
sources were not scanned with virus protection software before being uploaded to the server.
The IRS requires that system backup files be stored offsite. However, offsite storage was not
used for backup files because the RAS organization had not completed negotiations with the IRS
Modernization and Information Technology Services organization to secure the system backup
files.
We also identified database security vulnerabilities within the systems we reviewed. Database
patching2 was not adequate, access permissions were set incorrectly, password settings were
incorrect, and the auditing feature was not properly enabled to detect unauthorized activities in
the databases.
Our findings indicate that managers and system administrators had not placed sufficient
emphasis on maintaining the security and privacy of the taxpayer data they were charged with
protecting. In addition, a security officer had not been designated to communicate security
guidance and monitor compliance with IRS security policies, and software was not available to
scan for security weaknesses. Until these root causes are addressed, the RAS organization will
be unable to effectively manage and secure systems containing taxpayer identifiable information.


1
  An audit log is a chronological record of system activities that allows for the reconstruction, review, and
examination of a transaction from inception to final results.
2
  A patch is a fix of a design flaw in a computer program. Patches must be installed or applied to the appropriate
computer for the flaw to be corrected.
                                                                                                                     2
                         The Office of Research, Analysis, and Statistics Needs to
                                 Address Computer Security Weaknesses




Recommendations
We recommended that the Director, Office of Research, Analysis, and Statistics, 1) designate a
security officer to monitor compliance with IRS security requirements and remind managers and
employees of their security responsibilities, 2) require system administrators and their managers
to ensure that all system access controls are followed, and to follow up on identified security
weaknesses to ensure they are corrected in a timely manner, 3) coordinate with the
Modernization and Information Technology Services organization to implement secure processes
for transferring sensitive data between computers, and ensure that scanning software is used to
periodically scan the RAS organization’s systems for security weaknesses, 4) implement and
monitor a process by which managers validate that system access is limited to only those who
have a need, 5) ensure that audit and accountability controls are sufficient by requiring that audit
logs are maintained a minimum of 6 years and are reviewed by the security officer, 6) require
managers to ensure that offsite storage is used for system and data backup files, and
7) coordinate with the Chief Information Officer to verify that intrusion detection systems are
installed to protect all systems and that virus protection software is current.

Response
The Director, Office of Research, Analysis and Statistics, agreed with our recommendations and
informed us that many of their corrective actions have already been taken. The RAS
organization will 1) designate a security officer and require system administrators and their
managers to follow system access controls, 2) follow up on identified security weaknesses and
ensure they are tracked on a Plan of Action and Milestones3 and corrected in a timely manner,
3) work with the Modernization and Information Technology Services organization to ensure
that data files are transmitted securely between computers as soon as an alternate data transfer
service is available, and ensure that scanning software is used to periodically scan the systems
for security weaknesses, 4) periodically review system access records for all systems to validate
that access is granted on a need-to-know basis, 5) retain audit logs for 6 years and require that
the newly designated security officer review the audit logs, 6) continue coordinating with the
IRS Enterprise Operations office to have the system and data backup files stored offsite, and
7) continue coordinating with the Modernization and Information Technology Services
organization to install host intrusion detection software and virus protection software on all


3
  A Plan of Action and Milestones, also referred to as a corrective action plan, is a tool that identifies tasks that need
to be accomplished. It details resources required to accomplish the elements of the Plan, any milestones in meeting
the task, and scheduled completion dates for the milestones.




                                                                                                                         3
                   The Office of Research, Analysis, and Statistics Needs to
                           Address Computer Security Weaknesses



systems as soon as available. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs) at
(202) 622-8510.




                                                                                              4
                            The Office of Research, Analysis, and Statistics Needs to
                                    Address Computer Security Weaknesses




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Office of Research, Analysis, and Statistics Needs to Implement
          Adequate Security Controls ..........................................................................Page 3
                    Recommendations 1 and 2: ..............................................Page 9

                    Recommendations 3 and 4: ....................................................... Page 10

                    Recommendations 5 through 7: ................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Description of the Office of Research, Analysis, and
          Statistics Suboffices ......................................................................................Page 16
          Appendix V – Management’s Response to the Draft Report .......................Page 17
               The Office of Research, Analysis, and Statistics Needs to
                       Address Computer Security Weaknesses




                            Abbreviations

IRS                  Internal Revenue Service
RAS organization     Office of Research, Analysis, and Statistics
                    The Office of Research, Analysis, and Statistics Needs to
                            Address Computer Security Weaknesses




                                      Background

The Internal Revenue Service’s (IRS) Office of Research, Analysis, and Statistics (RAS
organization) is the main provider of statistics about the Federal Government tax system. It also
provides IRS, Department of the Treasury, and other Federal Government officials with a suite
of research tools to conduct comprehensive analyses.
The statistical data and analyses provided by the RAS organization allow the IRS to prepare
studies, evaluate tax programs and initiatives, and respond to information requests from
Congress and other stakeholders. Examples of analyses conducted by the RAS organization
include statistics on taxpayers’ voluntary compliance with tax laws, enforcement activities
conducted by the IRS, and electronic filing trends. During Fiscal Year 2007, various
organizations made more than 1,700 research requests for data stored on the RAS organization’s
computer systems.
The taxpayer data include information obtained from the following major IRS data sources:
   •   Individual Master File – The IRS database that maintains transactions or records of
       individual tax accounts.
   •   Business Master File – The IRS database that consists of Federal tax-related transactions
       and accounts for businesses. These include employment taxes, income taxes on
       businesses, and excise taxes.
   •   Audit Information Management System – The IRS system that processes information
       related to IRS examinations of taxpayers.
The RAS organization is comprised of five suboffices: Office of Research, National Research
Program office, Office of Program Evaluation and Risk Analysis, Statistics of Income Division,
and Office of Servicewide Policy Directives and Electronic Research. A detailed description of
each suboffice is included in Appendix IV.
The RAS organization operates three main computer applications to accomplish its mission:
   •   Compliance Data Warehouse – Provides access to a wide variety of tax return,
       enforcement, compliance, and other data to support the query and analysis needs of the
       research community. It captures data from multiple production systems and migrates,
       transforms, and organizes the data in a way that is conducive to analysis.
   •   Statistics of Income Distributed Processing System – Supports the IRS requirement to
       annually report to Congress on the numbers and types of tax returns filed and the
       characteristics and money amounts reported on those returns. The sample data are used

                                                                                             Page 1
                        The Office of Research, Analysis, and Statistics Needs to
                                Address Computer Security Weaknesses



         by the Bureau of Economic Analysis, the Congressional Budget Office, the Department
         of the Treasury Office of Tax Analysis, and the Joint Committee on Taxation.
    •    YK1 Link Analysis Tool – Extracts data from an Oracle database that contains selected
         information from the Individual1 and Business Master File Returns Transaction Files.2
         The application uses partnership data to show how gains and losses flow through and
         across all related entities.
We focused our review on technical, operational, and managerial controls that should be
established to protect these three applications, which we refer to as “systems” in this report. The
RAS organization employs its own Information Technology function to manage the security over
its Statistics of Income Distributed Processing System. The security controls for the Compliance
Data Warehouse and the YK1 Link Analysis Tool systems are managed jointly by the
RAS organization and the IRS Modernization and Information Technology Services
organization. This arrangement is in contrast to the majority of IRS organizations, whose
computer systems are administered by the Modernization and Information Technology Services
organization.
This review was performed in the RAS organization offices in Washington, D.C., and the
Ogden, Utah, Campus3 during the period August 2007 through April 2008. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




1
  Individual Return Transaction File programs receive individual tax return data, reformat, and post returns to the
Return Transaction On-Line File. They also do weekly cross-reference maintenance.
2
  Business Return Transaction File programs receive business tax return data, reformat, and post returns to the
Return Transaction File, and do periodic file maintenance.
3
  Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                             Page 2
                    The Office of Research, Analysis, and Statistics Needs to
                            Address Computer Security Weaknesses




                                Results of Review

The Office of Research, Analysis, and Statistics Needs to Implement
Adequate Security Controls
Information technology personnel in the RAS organization manage computer systems containing
a large amount of sensitive taxpayer data. To accomplish their missions, system users must be
able to access enormous amounts of taxpayer data. The risk of unauthorized disclosure of these
data dictates tight control and close monitoring to ensure that security vulnerabilities are
identified and corrected in a timely manner. However, we found significant security weaknesses
on each of the RAS organization’s computer systems reviewed. These weaknesses increase the
risks of 1) unauthorized disclosure of taxpayer data that could be used for identity theft, and
2) significant disruption to computer operations.
Our findings indicate that managers and system administrators had not placed sufficient
emphasis on maintaining the security and privacy of the taxpayer data they are charged with
protecting. In addition, a security officer had not been designated to communicate security
guidance and monitor compliance with IRS information security policies, and software was not
available to scan for security weaknesses. Until these root causes are addressed, the RAS
organization will be unable to effectively manage and secure systems containing taxpayer
identifiable information.

Management of access to systems was inadequate
Each employee and contractor request for access to a system should be authorized by his or her
manager using an Information System User Registration/Change Request (Form 5081). Before
authorizing an employee or contractor to have access to a system, the manager should ensure that
the potential user needs the access to carry out his or her responsibilities and has passed a
background investigation. Managers are also required to annually review their employees’ and
contractors’ access rights to ensure that the employees or contractors still need access to the
computer system. As an added control, the IRS requires that systems be configured to disable a
user’s account if it has not been used in the last 45 calendar days and to remove the account from
the system if it has not been used in the last 90 calendar days. Finally, to ensure accountability,
system administrators who are responsible for maintaining the computer systems must log into
their own unique accounts prior to accessing the systems and performing their duties.
We identified the following authorization control weaknesses:
   •   System administrators provided access to 67 (11 percent) of 613 employees and
       contractors on the 3 systems we reviewed without proper authorization from managers.

                                                                                            Page 3
                    The Office of Research, Analysis, and Statistics Needs to
                            Address Computer Security Weaknesses



               procedures. These control weaknesses increase the risk that an unauthorized or
               malicious person could gain access to the systems to steal taxpayer information or
               disrupt operations.

Users’ passwords did not comply with IRS standards
To ensure that employees and contractors are who they say they are, the IRS requires each user
to have a unique password. The IRS also provides specific requirements for passwords to ensure
that they are sufficiently complex so they cannot be easily guessed. Password settings on the
Compliance Data Warehouse and the YK1 Link Analysis Tool systems did not conform to IRS
information security standards. For the Compliance Data Warehouse system, the passwords
were not always sufficiently complex, the passwords were not set to expire after the required
length of time, and new users were not required to change their passwords when they initially
login. On the YK1 Link Analysis Tool system, passwords were not set to expire after the
required length of time.
System administrators stated that they were unaware of certain password standards. In addition,
their managers did not provide sufficient oversight to ensure that the administrators were
complying with IRS standards. Malicious users can exploit user accounts with weak password
settings to steal taxpayer identities and carry out fraud schemes.

Unencrypted sensitive data were transferred between computers
The IRS developed procedures to limit unsecured services on networks. However, these services
were still in use. We identified two high-risk, inadequately configured computer services
running on all of the systems. Specifically, the File Transfer Protocol and the Telnet services
were used to facilitate remote transfers of taxpayer data and provide remote access to computers
containing taxpayer identifiable information. The use of these two services is widely known in
the information technology industry as being insecure because they do not encrypt data
transferred between computers.
The RAS organization’s Internet web site states that the Compliance Data Warehouse system
supports the use of the File Transfer Protocol on a temporary basis, usually for a period not to
exceed 10 business days. This allows a fast, convenient method for transferring larger amounts
of data to and from the Compliance Data Warehouse system environment. However, according
to the IRS information security policy, these types of services should be prohibited.
The IRS was in the process of implementing secure methods for transferring sensitive data
during our review. However, RAS organization managers had not yet implemented those
methods. As a result, the risks of unauthorized access to and disclosure of highly sensitive
taxpayer data transmitted between RAS organization systems were increased.




                                                                                               Page 5
                     The Office of Research, Analysis, and Statistics Needs to
                             Address Computer Security Weaknesses



System backups were not stored at an offsite facility
The IRS requires that system backup files be stored offsite. However, offsite storage was not
used for backup files for the systems we reviewed. Previously, the IRS National Headquarters
had been selected as the offsite storage facility for the RAS organization’s systems. This
arrangement was terminated after the National Headquarters was damaged by a flood in
June 2006.
During our review, the RAS organization was negotiating with the Modernization and
Information Technology Services organization to obtain offsite storage. However, the RAS
organization did not place sufficient emphasis on implementing this security control and the
negotiations were not completed. Failure to use offsite storage could result in an inability to
recover key data in the event of a disaster.

System audit logs were not always retained or reviewed
IRS procedures state that each computer system is required to collect and review audit log
information at least weekly. Audit logs should be retained for 6 years. An audit log is defined as
a chronological record of system activities that allows for the reconstruction, review, and
examination of a transaction from inception to final results. Audit logs are essential in
determining accountability for unauthorized use of or changes to a system, investigating security
incidents, and monitoring user and system activities.
Audit logs for the RAS organization’s computer systems were not adequately retained or
reviewed. For example, audit log data were not adequately retained on the Statistics of Income
Distributed Processing System. On the YK1 Link Analysis Tool system, audit trail data were
retained and reviewed. However, administrator actions and configuration changes were not
included in the review. Audit logs for the Compliance Data Warehouse system had been
retained but were not regularly reviewed.
The RAS organization did not designate a security officer to review audit logs and report
security weaknesses to management. When audit log data are not reviewed, improper activities
carried out by external intruders or malicious internal users are less likely to be detected.

Intrusion detection systems were not installed, and virus protection software was
not current
The IRS recommends use of intrusion detection systems and virus protection software to deter
and detect unauthorized users from entering or disrupting IRS operations. Intrusion detection
systems can inspect all inbound and outbound network activity and identify suspicious patterns
that might indicate a network or system is being attacked. Intrusion detection systems were not
installed on the three systems we reviewed. Also, virus protection software was not current on
the Statistics of Income Distributed Processing System. In addition, data received from other
sources were not scanned with virus protection software before being uploaded to the server.

                                                                                             Page 6
                        The Office of Research, Analysis, and Statistics Needs to
                                Address Computer Security Weaknesses



Although this is not a requirement and the data are generally received from trusted sources, the
damage that can be caused by viruses and worms on systems containing large amounts of data,
as in the RAS organization’s systems, indicates the need to scan the data from other sources
before loading the data onto the systems.
Managers and system administrators had relied on Modernization and Information Technology
Services organization staff to implement intrusion detection systems and virus protection
software. However, the RAS organization’s managers and system administrators did not follow
up to ensure that these controls were implemented. The lack of intrusion detection systems and
current virus protection software increases the risk that data could be stolen and computer
operations disrupted.

Database scanning revealed numerous high-risk vulnerabilities
Our review focused primarily on security controls to protect the RAS organization’s computer
systems. However, because databases are part of the systems and hackers could gain access to
taxpayer data in the databases without entering the systems, we also tested security controls
specifically related to the databases. While the security of sensitive taxpayer data is dependent
on the strength and layers of the security controls protecting it, the last and possibly best line of
defense is a system of database security controls.
We identified the following database security vulnerabilities on all three of the systems:
    •   The database administrators did not adequately install updates and patches4 to the
        databases, as evidenced by our scanning results. Database vendors often discover
        security weaknesses in their databases after their products are sold to customers. To
        address the security weaknesses, the vendors issue patches or updates to their customers.
        When vendors issue security patches, they are acknowledging that their products contain
        security vulnerabilities that can be exploited. However, issuing patches also notifies the
        hacker community of potential security vulnerabilities, often causing a race between
        hackers attacking these vulnerabilities and information technology professionals
        installing the patches on their systems. The National Institute for Standards and
        Technology5 states that, “Timely patching is critical to maintain the operational
        availability, confidentiality, and integrity of Information Technology systems. However,
        failure to keep operating systems and system software patched is the most common
        mistake made by Information Technology professionals.”6 National Institute for

4
  A patch is a fix of a design flaw in a computer program. Patches must be installed or applied to the appropriate
computer for the flaw to be corrected.
5
  The National Institute of Standards and Technology, under the Department of Commerce, is responsible for
developing standards and guidelines for providing adequate information security for all Federal Government agency
operations and assets.
6
  Creating a Patch and Vulnerability Management Program (National Institute for Standards and Technology
Special Publication 800-40, dated November 2005).
                                                                                                          Page 7
                    The Office of Research, Analysis, and Statistics Needs to
                            Address Computer Security Weaknesses



       Standards and Technology guidance directs that organizations should regularly check for
       updates and patches from vendors and apply them in a timely manner, and scan systems
       to validate whether security patches and software versions are current.
   •   The database administrators did not adequately restrict database access permissions. The
       IRS requires that database access permissions be configured based on the principle of
       least privilege. Users should be granted the least and weakest privileges needed to
       perform their duties. For example, some users have the sole need of reading the data.
       Therefore, the database administrator should configure the database access permissions to
       ensure that these users cannot delete data or execute powerful database functions. The
       database administrators did not adhere to the principle of least privilege in granting
       privileges to the “Public” access permission, which is automatically given to all users
       during database installation. The excessive privileges granted to the Public access
       permission could be used to circumvent database security and corrupt the computer
       system. Users in the Public group could also unintentionally modify or delete database
       tables that are needed by the systems to generate accurate analyses and statistics.
   •   The database administrators did not establish password settings in compliance with IRS
       standards. They did not establish settings to ensure that 1) default passwords were
       changed after initial login, 2) the minimum password length was set to the required
       number of characters rather than zero, and 3) the number of failed login attempts before
       users were locked out of the system was correct.
   •   The database administrators did not properly enable the auditing feature to detect
       unauthorized activities in the databases. The IRS requires that the auditing feature be
       active to track user activities within databases.
The above vulnerabilities resulted from a lack of attention to security by the RAS organization.
In addition, the RAS organization informed us that it does not have database scanning software
to detect the vulnerabilities we found with our scanning software. Had the RAS organization
used database scanning software and implemented regular database scanning, these security
vulnerabilities could have been identified and corrected in a timely manner.
The security vulnerabilities we detected provide an opportunity for data stored in the databases to
be compromised, which could lead to identity theft or fraud. In addition, employees and
intruders who gain unauthorized access to the systems and networks can cause major disruptions
of service affecting productivity.




                                                                                            Page 8
                    The Office of Research, Analysis, and Statistics Needs to
                            Address Computer Security Weaknesses



       Management’s Response: The RAS organization agreed with this recommendation.
       The RAS organization will periodically review Form 5081 records for all systems and
       use the online 5081 system to validate that system access is granted on a need-to-know
       basis. In addition, the RAS organization will not grant system access to employees
       without a favorable background clearance. Because the RAS organization relies on
       contractors to keep the Compliance Data Warehouse system running and background
       investigations are taking 6 months or longer to complete, system access will be restricted
       and Federal employees will closely monitor the work of contractors throughout regular
       working hours until the contractors receive a favorable background investigation.
Recommendation 5: Ensure that audit and accountability controls are sufficient by requiring
that audit logs be maintained a minimum of 6 years and be periodically reviewed by the security
officer.
       Management’s Response: The RAS organization agreed with this recommendation.
       Audit logs will be retained for 6 years and the newly designated security officer will
       review the audit logs.
Recommendation 6: Require managers to ensure that offsite storage is used for system and
data backup files.
       Management’s Response: The RAS organization agreed with this recommendation.
       The RAS organization is currently working with the IRS Enterprise Operations office to
       have the RAS organization’s system and data backup tapes included in the IRS’ offsite
       storage contract.
Recommendation 7: Coordinate with the Chief Information Officer to verify that intrusion
detection systems are installed on all systems and virus protection software is current.
       Management’s Response: The RAS organization agreed with this recommendation
       and is coordinating with the Modernization and Information Technology Services
       organization and Cybersecurity office to install host intrusion detection software. Virus
       protection software is being installed on all Windows-based servers and workstations.
       UNIX servers will have virus protection software installed once the software is purchased
       and made available by the Modernization and Information Technology Services
       organization.




                                                                                         Page 11
                       The Office of Research, Analysis, and Statistics Needs to
                               Address Computer Security Weaknesses



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS RAS organization
maintained effective security controls over its information systems. For the period August 2007
to April 2008, we evaluated compliance of three systems with specific technical, operational, and
managerial controls required by the National Institute of Standards and Technology1 and the IRS.
These three systems were the Compliance Data Warehouse system, Statistic of Income
Distributed Processing System, and YK1 Link Analysis Tool system. We also reviewed security
controls on the databases within the systems. For any control deemed inadequate, we determined
why and the effect of the inadequate control. To accomplish our objective, we:
I.      Determined whether key access controls were in place and operating effectively for each
        of the RAS organization’s systems.
        A. Determined whether accounts were reviewed at least annually to verify they were
           needed.
        B. Determined whether generic, duplicate, or inactive accounts existed.
        C. Evaluated technical database controls on the RAS organization’s systems.
II.     Determined whether adequate audit logs were maintained, reviewed, and retained and
        whether adequate controls existed for ad hoc queries of taxpayer data.
        A. Determined whether audit logs existed, captured key events, and were being
           reviewed.
III.    Determined whether authentication/password controls were in place and operating
        effectively.
        A. Determined whether passwords met Internal Revenue Manual criteria.
IV.     Determined whether contingency plans existed and were tested for each of the three
        systems.
        A. Determined whether system backups were stored offsite.




1
 The National Institute of Standards and Technology, under the Department of Commerce, is responsible for
developing standards and guidelines for providing adequate information security for all Federal Government agency
operations and assets.
                                                                                                        Page 12
                         The Office of Research, Analysis, and Statistics Needs to
                                 Address Computer Security Weaknesses



V.       Determined whether key personnel controls were in place and operating effectively.
         A. Determined whether user access privileges were removed from the system upon user
            termination.
         B. Determined whether an Information System User Registration/Change Request
            (Form 5081) had been completed and approved for each system user.
         C. Determined whether contractors or other third parties with system access had proper
            approvals and background checks completed prior to being given system access.
VI.      Determined whether system monitoring tools and security advisories were used.
         A. Determined whether the systems used intrusion detection systems and virus
            protection software.
         B. Determined whether the RAS organization received security advisories, issued alerts
            to staff, and took action based on alerts (e.g., installing current patches2).
VII.     Determined whether key certifications, accreditations, and security assessments were
         properly conducted and updated for each system.
         A. Evaluated the adequacy of assessments and whether substantive testing was included
            as part of the assessments.
         B. Determined whether Plans of Action and Milestones3 were developed and updated.
         C. Determined whether the accreditation demonstrated adequate support for the
            accreditation decision.
VIII.    Determined whether risk assessments and vulnerability scanning were conducted for each
         system.




2
  A patch is a fix of a design flaw in a computer program. Patches must be installed or applied to the appropriate
computer for the flaw to be corrected.
3
  A Plan of Action and Milestones, also referred to as a corrective action plan, is a tool that identifies tasks that need
to be accomplished. It details resources required to accomplish the elements of the Plan, any milestones in meeting
the task, and scheduled completion dates for the milestones.
                                                                                                                Page 13
                   The Office of Research, Analysis, and Statistics Needs to
                           Address Computer Security Weaknesses



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Preston B. Benoit, Acting Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Allen Gray, Audit Manager
Michelle Griffin, Audit Manager
Michael Howard, Audit Manager
Cari Fogle, Senior Auditor
Myron Gulley, Senior Auditor
Bret Hunter, Senior Auditor
Louis Lee, Senior Auditor




                                                                                      Page 14
                   The Office of Research, Analysis, and Statistics Needs to
                           Address Computer Security Weaknesses



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Information Officer OS:CIO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Office of Research, Analysis, and Statistics RAS




                                                                                  Page 15
                    The Office of Research, Analysis, and Statistics Needs to
                            Address Computer Security Weaknesses



                                                                               Appendix IV

     Description of the Office of Research, Analysis,
                and Statistics Suboffices

1. Office of Research – Improves tax administration by providing information, analysis, and
   solutions from an agency-wide perspective and by advocating actions for decision makers.
2. National Research Program – Measures voluntary compliance including filing, payment,
   and reporting compliance.
3. Office of Program Evaluation and Risk Analysis – Provides the senior leadership team
   with accurate and timely analysis of ongoing and proposed IRS programs and investments to
   support quality, data-driven strategic thinking and decision making across the organization.
4. Statistics of Income Division – Collects, analyzes, and disseminates information on Federal
   taxation for the Department of the Treasury Office of Tax Analysis, Congressional
   committees, IRS business units in their administration of the tax laws, other organizations
   engaged in economic and financial analysis, and the general public.
5. Office of Servicewide Policy Directives and Electronic Research – Designs and delivers
   core research tools and services that advance the customer service, compliance, and
   enforcement priorities of the IRS.




                                                                                        Page 16
      The Office of Research, Analysis, and Statistics Needs to
              Address Computer Security Weaknesses



                                                      Appendix V

Management’s Response to the Draft Report




                                                            Page 17
The Office of Research, Analysis, and Statistics Needs to
        Address Computer Security Weaknesses




                                                      Page 18
The Office of Research, Analysis, and Statistics Needs to
        Address Computer Security Weaknesses




                                                      Page 20
The Office of Research, Analysis, and Statistics Needs to
        Address Computer Security Weaknesses




                                                      Page 21
The Office of Research, Analysis, and Statistics Needs to
        Address Computer Security Weaknesses




                                                      Page 22
The Office of Research, Analysis, and Statistics Needs to
        Address Computer Security Weaknesses




                                                      Page 23
